m

m

'iV&

PSkagmmmHP
AfeSKsw

*!'*

I

m&m
sa^p

SORREM! ©©WOF ILLINOIS

s?s

aiBI

w
«bf*
rrnimm^.

-‘MWll^iilSIpIr
. . Chicagcfll' |M|)|;

November^8.2020
>
I

respontienis, v. Oeborah CliBng,'j>etltifl^): UfMMM
||fe!l|te/eouri,Rf5ibi§tncL
s

.’<•

.-.

TTieStpl^mS, Court: ay.D.BNIED toerPe^tiontor L&auetoApf)eaitotheabove
'. ..........

Tfte.mariaato pfthis Court will issueto theAppeflate Couiton W2m20.

.tie?
is

fe
Very truly yours.

ill

?■

:Jm-

rrr: W-W':c**"*,**^™
*•
"''■■■

i’

i:
• ■ v$fgp$g$$

Pi

j

r«W! ’s?«§|)§

lit
■ ■' 'PP®ift;

APPENDIX 1

V

2020IL App (1st) 191490-U
SIXTH DIVISION
April 17,2020
No. 1-19-1490
NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as precedent
by any party except in the limited circumstances allowed under Rule 23(e)(1).
IN THE
APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT

In re ESTATE OF DEBORAH CHENG,
(MARY RALEIGH, Guardian Ad Litem,
Petitioner-Appellee,
v.
DEBORAH CHENG,
Defendant-Appellant),
(Charles P. Golbert, Cook County Public Guardian, as
Plenary Guardian of the Estate of Deborah Cheng,
Appellee).

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Appeal from the
Circuit Court of
Cook County

No. 18 P 5685

Honorable
Susan Kennedy-Sullivan,
Judge Presiding.

PRESIDING JUSTICE MIKVA delivered the judgment of the court.
Justices Cunningham and Harris concurred in the judgment.
ORDER
f1

Held: The circuit court’s determination that respondent needed a guardian of the estate
was not against the manifest weight of the evidence.

12

This appeal stems from the circuit court’s appointment of a guardian of the estate for

respondent Deborah Cheng. On appeal, Deborah contends that the circuit court’s finding that she

APPENDIX 2

No. 1-19-1490
needed such a guardian was error because (1) the evidence that Deborah suffers from a mental
illness was insufficient and lacked a medical basis and (2) the conclusion that Deborah was unable
to manage her estate was unsupported by the testimony. For the following reasons, we affirm.

13
I4

I. BACKGROUND
In March 2016, Deborah’s father, Paul Cheng, passed away. In his estate plan, Paul

provided for the division of his estate among his four adult children: Maria, Elizabeth, Deborah,
and Samuel. Paul’s will was admitted to probate in case No. 16 P 1789. Elizabeth, who was
executor of her father’s estate, requested that Deborah’s portion be deposited into a special needs
trust so that she would not lose the government benefits that she was receiving. Deborah objected
and on January 10, 2018, Mary Raleigh was appointed by the judge overseeing Paul’s estate to
serve as guardian ad litem (GAL) for Deborah in that action.
1f 5

On August 21,2018, at the direction of the judge handling the probate of Paul’s estate, Ms.

Raleigh filed this case, a petition for the appointment of a guardian of the estate for Deborah. The
petition alleged that Deborah had bi-polar and schizoaffective disorders and as a result was unable
to manage her estate and financial affairs. In the petition, Ms. Raleigh requested that Deborah be
adjudicated a person with a disability and that Charles P. Golbert of the Office of the Cook County
Public Guardian (OPG) be appointed guardian of the estate for Deborah. Deborah objected to the
petition for guardianship and the circuit court appointed independent counsel to represent her.
16

After a settlement conference failed to result in an agreement, the circuit court held a three-

day hearing on the petition in February 2019. The GAL first called Kerry Hamill, an attorney with
the OPG, who testified that if Deborah was found to be in need of a guardian of her estate, the
OPG would accept that appointment and that there was a plan for Deborah’s estate, which included
Deborah’s approximately $120,000 inheritance. Ms. Hamill testified that the OPG would set up a
2

No. 1-19-1490
trust so that the inheritance would not jeopardize Deborah’s receipt of government benefits.

V

Two of Deborah’s siblings—her brother Samuel Cheng and her twin sister Elizabeth

Solomon—also testified at her hearing. Elizabeth testified that Deborah had “a long history of
well-established mental health challenges,” that Deborah was “diagnosed as schizophrenic as well
as bipolar,” and that “there was no progression that showed that she would ever be cured.”
Elizabeth also testified that she “believe[d] strongly” that a special needs trust was “the best way
to take care of Deborah, to ensure she gets the care she needs and she’s always in a safe
environment.” Elizabeth said that Deborah would be entitled to approximately $ 165,000 from their
father’s estate.
If 8

According to Samuel, Deborah graduated with a degree in industrial engineering from

Northwestern University, then worked in Virginia near Washington, D.C., from 1996 until 2007.
In 2007, Samuel said their oldest sister, Maria, was concerned about Deborah’s health and went to
visit Deborah. After the visit, Samuel learned that Deborah’s living conditions were “not ideal”:
she had “saran-wrapped” her stove and countertops, she had no furniture beyond a table, and she
slept in a sleeping bag with a comforter on the floor. Samuel explained that in the past, that was
how the Cheng siblings had slept when they came home from college, as their parents had disposed
of all their furniture.
1f 9

Maria persuaded Deborah to return to Chicago with her. Once there, Deborah was admitted

to the Tinley Park Mental Health Center (Tinley Park Center)—her first hospitalization. When
Deborah was discharged from the Tinley Park Center, she moved in with her stepmother Alice,
who was a nurse. While she lived with Alice, Deborah got a job working in a library.
11°

1112008> Deborah moved into her own apartment because she said she did not feel “normal”

at Alice’s house. Deborah spent $6000 to purchase new furniture for her home. Samuel described
3

No. 1-19-1490
this behavior as Deborah s attempt to show “this is me, I’m normal now because this is what
everybody has. They have their own place, they have their own furniture.” Samuel also testified
that at some point after her first hospitalization, Deborah canceled her social security disability
benefits.
U 11

Samuel further testified that in the fall of 2008, he picked up Deborah for Thanksgiving

dinner at Alice’s house. At dinner, Deborah said she was thinking about moving back to Virginia
Samuel tried to convince Deborah that this was not a good idea, but she was “adamant.” Deborah
stormed out of the house and sat on the curb, and “in desperation, [Samuel] called the police.”
When the police approached Deborah, she “reacted violently,” which ultimately resulted in the
police taking her to undergo a psychiatric evaluation. After the evaluation was completed at a
hospital, when trying to figure out where Deborah could go, Deborah mentioned that she had
previously been at the Tinley Park Center, “[s]o they took her there” for her second hospitalization.
112

111 late 2009, a judge ruled that Deborah could leave the Tinley Park Center but required as

a condition of her release that she stay at a group home for 90 days before returning to her normal
life. When Deborah moved into the group home, Samuel made two visits to check on her. On his
third visit, however, he learned that Deborah had left and moved back to Virginia.
113

In 2009, Deborah paid $68,000 to the Tinley Park Center for her stay there. Deborah

explained to Samuel that she wanted to pay it back because “then it can be—my medical record
can be expunged, and I can look normal. I could be normal.” Elizabeth discussed the $68,000
payment with Deborah as well, and said that Deborah “was adamant she was not mentally ill; she
needed to expunge her records because this was bad for her record, and she will never be able to
get a job if this was on her permanent record. She felt that if she paid it back it w[ould] be
expunged.” Deborah also contacted attorneys to get her record “expunged.”

4

No. 1-19-1490
If 14

Then in 2011, Deborah returned $42,000 to social security for her social security disability

benefits. Elizabeth testified that Deborah again “claimed she was not ill. She was not mentally ill.
The doctors had it all wrong. Every physician should be fired for saying she is mentally ill bee ause
she is not. She needed to expunge her medical records; and if she did not, she could not find other
employment.” Although Deborah paid back $42,000 to social security, she did not pay back all of
benefits she received “because then she ran out of money.”
If15

Samuel and Elizabeth both started getting calls from Deborah, who was asking for money

because she had been kicked out of her condo and needed a place to live. According to Samuel,
“she was going from motel to motel. She was desperate. She was begging people.” Elizabeth
testified that Deborah was living on the street for a period of about three-and-a-half months. At
some point, neither Samuel nor Elizabeth could continue to give Deborah money. Deborah’s
family discussed how to handle the situation and whether Deborah should return to Chicago.
Deborah, however, insisted she would only move in with their father, Paul, who lived alone in
Chicago. Their father was over 80 years old at the time, so Samuel thought the arrangement would
be good for both Deborah and Paul. Samuel gave Deborah one of his credit cards, which he
explained “allowed for you to use $50 without signing for it per month” so that Deborah could buy
food for herself, instead of eating her father’s food.
If 16

Samuel visited Deborah and Paul at least once every two weeks until the Chicago winter

made regular visits difficult. He told Deborah to call if there was an emergency, and one Saturday
he received a call from Deborah asking for help with their father. When Samuel arrived, he found
their father unable to even get out of bed. Samuel drove Paul to the hospital where he learned his
father was having trouble breathing and had issues with his heart. After Paul’s hospitalization, the
family moved him into a nursing home.

5

No. 1-19-1490
t17

White Paul was in the nursing home, Samuel needed to get into Paul’s condo to get the

mail and help pay the bills, but Deborah refused to let him in. Samuel felt he had no choice but to
call the police again. According to him, the police were “concerned about some of the responses”
Deborah was giving, so they gave Samuel access to the condo while they took her to Weiss
Hospital.
1f 18

Deborah was discharged from Weiss Hospital to Read Mental Health Center (Read) for her

third mental health hospitalization. Paul passed away while Deborah was at Read. During her stay
there, Deborah also executed a power of attorney, naming Elizabeth as her agent, and Elizabeth
helped Deborah reapply for social security disability.
119

Deborah was discharged from Read to Margaret Manor North, an independent care facility,

now known as MADO Healthcare Buena Park, which we refer to here as MADO. Samuel visited
Deborah at MADO and said that she was receiving higher doses of her medications, so he was
“able to have conversations with her [and] take her out to eat.” Samuel recommended to Deborah
that she get a job, but she said that once their father’s estate went through probate, she would have
the money she needed to live on her own. Samuel explained to the court that this concerned him
because “there’s no way [Deborah could] just live on that money.” Samuel took Deborah to
McDonald’s and Jewel to apply for jobs, but Deborah refused to fill out any applications because
those jobs were “beneath her.” Instead, she wanted an engineering job. Samuel and his wife helped
Deborah buy a new suit and shoes for job interviews that “she constantly said she had,” but then
Deborah just said that, oh, all these people—they didn’t have jobs right now for [her], but [she]
w[ould] get a job.”
120

After he moved to the suburbs in 2018, Samuel stopped visiting Deborah, citing the hour-

long drive to MADO from his home. As of the hearing, he had not seen Deborah for approximately
6

No. 1-19-1490
one year. Samuel said that Deborah has called him multiple times and sent him letters and that her
discharge plan included moving in with him and his family. Samuel testified “there was no possible
way” he could manage that. Samuel said he used to talk to Deborah on the phone “at least once a
week” until she kept calling him when he was at work, and “every time she called [him], the
conversation was pretty much the same thing.” He now sends her calls to voicemail.
121

When asked how he was familiar with Deborah’s finances, Samuel explained that Deborah

gave him access to a checking account she had because she needed to maintain it above $2000 “or
[she would] get penalized a fee every month.” Deborah added Samuel to her account “so then [he]
c[ould] bring the money above $2,000, keep it above there so she would not get penalized.”
Because Samuel still had access to the account, he knew there had been no withdrawals from it.
Deborah also forwarded her mail to his address, so he received her bank statements. Samuel
testified that he believed that Deborah had an IRA worth $25,000.
1 22

Elizabeth’s understanding of Deborah’s finances was that she received benefits from social

security disability that were paid directly to MADO, and that Deborah otherwise had no income.
Elizabeth was familiar with Deborah’s finances because she had helped Deborah apply for social
security disability benefits on two or three separate occasions. She testified that the last time
Deborah was gainfully employed as an industrial engineer was 2007, and the last time she had full­
time employment of any kind was in 2009, when she worked at a library for one year. Elizabeth
also said that she believed if Deborah received her inheritance from their father’s estate outright,
that Deborah would “lose all of her social security benefits, disability benefits, and she will lose
Medicaid as well.”
I 23

Elizabeth, who lives in Washington state, acknowledged that she had not seen Deborah

since 2016 when Deborah was at Read. Elizabeth explained that she called Deborah less and less

7

No. 1-19-1490
from 2016 to 2018 because they always discussed “the same topics.” When asked what her most
recent firsthand knowledge of Deborah’s need for a guardian was, Elizabeth said it came from a
counselor at MADO, and that she had most recently spoken to someone at MADO in October
2018. Elizabeth also testified that she had resigned as the holder of Deborah’s power of attorney
in 2018 and that she still had “minimum weekly emails from Deborah” and was aware of
Deborah’s state of mind as a result of those emails. Elizabeth explained that she supported the
OPG serving as guardian of Deborah’s estate because she wanted her sister to be safe and taken
care of.
124

Dr. Shephali Patel, a board-certified psychiatrist who worked as a physician at MADO,

testified that Deborah had been her patient since February 2017. Dr. Patel does “med management”
with Deborah. They meet once per month for about 10 to 15 minutes. Dr. Patel explained that
sometimes their meetings are shorter because “if Deborah does not like to hear what [she] ha[s] to
say, [Deborah] will walk away.” Dr. Patel did not know Deborah’s highest level of education or
her prior occupation.
1f25

Dr- Patel testified that Deborah has a mental illness called “schizoaffective disorder,”

which is a chronic mental illness characterized by symptoms of schizophrenia and mood
disorder. Dr. Patel said that Deborah also had “poor coping skills,” explainingDeborah has difficulty because of her mental illness. She has a very difficult time
acknowledging that she has a mental illness. She is in a state of denial that she has an
illness, a mental illness. She is not able to cope with the stressors and she is not—she will
not remain compliant with her medications. She can become very oppositional, very
impulsive in her decision making skills and will just not listen to what I have to say.”
If26

Dr- Patel testified that Deborah’s schizoaffective disorder affected her “mood, judgment,
8

No. 1-19-1490
thinking, and decision making skills,” and her “problem solving skills, her organizational skills,
[and] her emotional stability.” Dr. Patel also testified that Deborah had lately exhibited “delusional
thought processes” and was fixated on wanting to move out of MADO and that Deborah “says she
is cured, she has no mental illness in spite of me telling her repeatedly that, no, you need to take
your meds. She will only take meds what she wants to take.”
If 27

Dr. Patel s conclusion was that Deborah was “[tjotally incapable of making personal and

financial decisions” and, as for living arrangements, Dr. Patel “strongly recommend[ed] an
intermediate care facility such as MADO.”
If 28

Kaitlin Arnold, the clinical director at MADO, who at the time of her testimony had a

master’s degree in counseling psychology from Northwestern University and was “[o]n track” to
become a licensed clinical professional counselor, testified that she had been at MADO for twoand-a-half years. During that time, she had interacted with Deborah frequently, seeing her about
once or twice per week since Deborah’s case manager left. The only discharge plan of Deborah’s
that Ms. Arnold knew of was that Deborah was hoping to move in with Samuel. Ms. Arnold stated
that Deborah would voice that plan “[a]t least two or three times a week.”
If 29

Ms. Arnold testified that Deborah was diagnosed with “[sjchizoaffective disorder, bipolar

type,” and agreed that Deborah’s behaviors were consistent with that diagnosis. Ms. Arnold said
that Deborah was most recently hospitalized “about a year ago” because she had become “very
verbally aggressive and tried to jab [her case manager] with a pen” because the case manager
asked Deborah to sign something she did not want to. In response to being asked whether Ms.
Arnold had ever discussed Deborah’s diagnosis of “schizoaffective bipolar” with Deborah, Ms.
Arnold responded, “We have discussed different behaviors and symptoms that I am noticing, and
she has not wanted to discuss those.” Ms. Arnold said that Deborah was prescribed medications
9

No. 1-19-1490
but did not take them.
f 30

Ms. Arnold explained that, after living at MADO for 60 days, all clients are offered services

through the “Moving On Program,” which involves being “assessed by Lutheran Social Services
of Illinois to see if they meet initial eligibility requirements to move out with the community
agency. Ms. Arnold said that they “help in setting up the communication” between clients and
the community agencies, “helping with any community living skill that they think would be
helpful, and aiding in that process to move out into more independent housing.” Deborah, however,
had not expressed interest in participating in that program. Ms. Arnold also verified that Deborah
received both Medicare and Medicaid and had never paid for her care or services at MADO
privately.
If 31

The GAL attempted to call Deborah as an adverse witness. The court sustained an objection

to this by Deborah’s attorney. The GAL then rested her case and the court denied Deborah’s
motion for a directed verdict. Before resting, Deborah’s counsel introduced one exhibit, her
medical records from MADO.
32

On March 19, 2019, the circuit court issued a nine-page, single-spaced written order

granting the petition for guardianship of the estate. The court noted that Deborah denied having a
mental illness, had been hospitalized three times due to her mental illness since 2007, was most
recently hospitalized in 2016, had not been employed since 2009, was “confident, falsely, she
would move in with a family member,” was adamant that she could handle her own money, had
not acknowledged her dependency on social security disability payments, did not make sound
financial decisions when she moved to her own apartment, and used her savings to “pay back
government benefits to expunge her record but never confirmed whether her repayment met her
goal.” The court also noted the evidence in Deborah’s favor, including that she is intelligent and
10

No. 1-19-1490
had an impressive academic career, and that she moved to her own apartment in 2008 and furnished
it with her own money,
f 33

The court cited the evidence and exhibits showing that, since 2007, Deborah has been

unable to handle her own financial affairs because of her mental illness. This included the fact that
Elizabeth applied for social security benefits on Deborah’s behalf in 2007, and helped her reapply
again in 2009 after Deborah returned $68,000 to Illinois and $42,000 to the federal government in
an attempt to “expunge” her record related to her need for social security disability. The court also
noted that Deborah was evicted and became homeless for a period of time; that she sought financial
support from her siblings while she was homeless but did not seek employment; that Deborah
continued to deny that she received social security, Medicare, and Medicaid benefits, although she
received all three; that she did not seem to understand that benefits were enabling her to stay at
MADO; and that Deborah had not held a job—except briefly in 2009—in 11 years.
^ 34

Finally, the court stated that it had found, by clear and convincing evidence, that because

of her mental illness, Deborah “is not able to weigh the pros and cons of managing her inheritance.”
The court encouraged Deborah “to seek restorations should circumstances change for her” after
again noting her “impressive education” and “successful life prior to her disability.” The court
appointed the OPG as the guardian of Deborah’s estate.
If35

1116 Parties appeared before the circuit court again on June 24,2019, on Deborah’s motion

to reconsider. The GAL informed the court that Deborah was no longer living at MADO and was
presently “living in the community.” The court asked Deborah if she had participated in “the move
out plan,” and though Deborah said she had, both the GAL and Deborah’s counsel inteijected,
explaining that Deborah had, in fact, “left abruptly” and signed herself out against medical advice.

11

No. 1-19-1490
If 36

The circuit court denied Deborah’s motion to reconsider. Deborah then asked the court for

five minutes to speak, insisting that the court not interrupt her. The court allowed Deborah to speak
on the record, during which she spoke at some length about her “gene of longevity,” telling the
court that she intended to make history. This appeal followed.
137
1 38

II. JURISDICTION
Deborah timely filed her notice of appeal on July 18, 2019. Accordingly, this court has

jurisdiction pursuant to Illinois Supreme Court Rule 301 (eff. Feb. 1,1994) and Rule 303 (eff. July
1,2017), governing appeals from final judgments entered by the circuit court in civil cases.
139
140

III. ANALYSIS
On appeal, Deborah argues that the circuit court erred in granting the GAL’s petition for

guardianship of Deborah s estate because (1) the evidence that Deborah suffers from mental
disorders was “meager” and lacked a medical basis, and (2) the evidence did not support the
conclusion that Deborah’s mental status inhibits her ability to manage her estate. For the following
reasons, we reject both of Deborah’s arguments.
141

Section 1 la-3 of the Probate Act of 1975 (Act) (755 ILCS 5/1 la-3 (West 2018)) provides

that a court may adjudge a person to be a person of disability if, “[u]pon the filing of a petition by
a reputable person

, but only if it has been demonstrated by clear and convincing evidence that

the person [to be so adjudged] is a person with a disability as defined in Section lla-2.”
Specifically, with respect to appointing a guardian of the estate, it must be “demonstrated by clear
and convincing evidence that because of his disability he is unable to manage his estate or financial
affairs.” Id. Section 1 la-2 of the Act defines a “Person with a disability” as “a person with mental
illness *** who because of his mental illness *** is not fully able to manage his person or estate.”
Id. § lla-2.

12

No. 1-19-1490

If 42

Our supreme court has defined “clear and convincing evidence” as:
“[T]he quantum of proof that leaves no reasonable doubt in the mind of the fact finder as
to the truth of the proposition in question. Although stated in terms of reasonable doubt,
courts consider clear and convincing evidence to be more than a preponderance while not
quite approaching the degree or proof necessary to convict a person of a criminal offense.”
Bazydlo v. Volant, 164 Ill. 2d 207,213 (1995).

1f 43

Whether and to what extent a person needs a guardian is a factual determination to be

made by the trial court and which a reviewing court may not reverse unless it is against the manifest
weight of the evidence.” (Internal quotation marks omitted.) In re Estate ofKusmanoff, 2017 IL
App (5th) 160129, Tf 83. “A decision is against the manifest weight of the evidence only where the
opposite conclusion is clearly evident or where it is unreasonable, arbitraiy[,] and not based on the
evidence.” (Internal quotation marks omitted.) Id.
f 44

The circuit court’s appointment of a guardian of estate for Deborah in this case was not

against the manifest weight of the evidence. Indeed, the evidence fully supported the circuit court’s
findings both as to the fact that Deborah suffered from a disability and that this disability left her
unable to manage her financial affairs.
If 43

Dr. Patel testified that Deborah suffered from schizoaffective disorder, was delusional, and

had “very limited” insight. Dr. Patel also testified that Deborah was “fixated” on moving out of
MADO. Despite this fixation, Ms. Arnold testified that Deborah’s only discharge plan was moving
in with her brother Samuel—which Samuel testified could not happen. Ms. Arnold further testified
that Deborah had not participated in the Moving On Program, which would have provided her with
services to help her become independent. Ms. Arnold also testified that Deborah’s behavior was
consistent with her diagnosis of “schizoaffective disorder, bipolar type.” In addition, Ms. Arnold

13

No. 1-19-1490
testified that Deborah’s stay at MADO was not paid for by Deborah but by Medicare and Medicaid,
though Deborah denied receiving any benefits.
I

1[46

Although Deborah’s testifying siblings acknowledged that they had not seen Deborah

recently, we agree with the GAL that their testimony also supported the court’s findings. Both
Deborah’s brother Samuel and her sister Elizabeth testified that Deborah suffered from a chronic
mental illness since 2007. Their testimony also supported the GAL’s position that Deborah needed
someone to help manage her estate. Deborah’s siblings testified that Deborah had not worked since
2009 and had asked for and received financial assistance from them multiple times. Deborah repaid
$68,000 to the Tinley Park Center in 2009 and $42,000 to social security in 2011, in an apparent
attempt to “expunge” her medical records and “look normal.” Before Deborah’s recent return to
Chicago from Virginia, she was homeless and begging for money. When Samuel suggested to
Deborah that she should get a job, Deborah said that she would have the money to live on her own
from their father’s estate. These actions demonstrate Deborah’s past inability to make sound
financial decisions.
147

None of this evidence was refuted. In fact, the only suggestion that Deborah understood

how to manage money came from her attorney, who said that Deborah knew that after 3 p.m. she
could get two doughnuts for $.79 at Jewel. Considering all of the evidence, we cannot say that the
circuit court s appointment of a guardian of the estate for Deborah was unreasonable, arbitrary, or
not based on the evidence, or that the opposite conclusion was clearly evident. Kusmanoff, 2017
IL App (5th) 160129,183.
1f 48

Deborah’s arguments to the contrary are simply not persuasive. Deborah argues that the

evidence that she suffers from a mental illness “is meager and lacks a medical basis.” Dr. Patel’s
testimony that Deborah suffers from schizoaffective disorder, bipolar type, was uncontradicted
14

No. 1-19-1490
and supported by testimony about Deborah’s behavior from other witnesses, such as Ms. Arnold
and her siblings. The medical records from MADO that Deborah entered as an exhibit at the
hearing further support the conclusion that she suffers from a chronic mental illness. This evidence,
taken together, is more than sufficient to present and clear and convincing picture that Deborah
suffers from a mental illness.
149

Deborah relies on In re Estate of McPeak, 53 Ill. App. 3d 133 (1977), to support her

argument that the medical evidence presented at her hearing was insufficient. In McPeak, the court
noted that the respondent suffered from a “weakening of vigor, skill, and acuity which is a normal
concomitant to advanced years,” and “a heart ailment and shortness of breath.” McPeak, 53 Ill.
App. 3d at 136. The court then found that the record was “barren” of any evidence to suggest that
the respondent was not capable of taking care of herself or her affairs. Id. In contrast here, however,
Deborah is in her 40s and suffers from a chronic mental illness that is hardly concomitant to her
current stage of life.
If 50

Deborah argues that Dr. Patel’s testimony was “limited and unreliable” and did not go

directly to Deborah’s ability to manage her finances. The circuit court itself noted in its written
ruling that Dr. Patel’s testimony was limited and we acknowledge the same—Dr. Patel interacted
with Deborah primarily for medication management. But as Deborah’s psychiatrist, Dr. Patel could
certainly testify as to Deborah’s diagnosis and that diagnosis was supported by other testimony.
151

Deborah’s second argument is that the manifest weight of the evidence did not show that

she was unable to manage her financial affairs. However, this argument is based on her insistence
that we should disregard her siblings’ testimony. We cannot do that. “Under the manifest weight
standard, we give deference to the trial court as the finder of fact because it is in the best position
to observe the conduct and demeanor of the parties and the witnesses.” In re Estate ofMichalak,
15

No. 1-19-1490
404 Ill. App. 3d 75, 96 (2010). “A reviewing court, therefore, must not substitute its judgment for
that of the trial court regarding the credibility of witnesses, the weight to be given the evidence, or
the inferences to be drawn.” In re D.F., 201 Ill. 2d 476,499 (2002).
1f 52

Deborah stresses that her siblings had not seen her recently at the time of the hearing.

However, the circuit court acknowledged that and stressed that they did observe her behavior for
a number of years, and that this same delusional behavior was still occurring, as reported by Ms.
Arnold at MADO. Deborah also argues that Elizabeth was operating under a conflict of interest
because she was both the executor of their father’s estate and the holder of Deborah’s power of
attorney. Deborah does not explain why this would undermine Elizabeth’s credibility. Elizabeth
testified, without contradiction, that she has been motivated throughout by her concern for her
sister’s welfare. Moreover, none of the history that Elizabeth recounted was contradicted and much
of it is confirmed by other testimony. Deborah points out that Elizabeth signed an affidavit in the
probate case in 2017 saying that Deborah was under no legal disability. First, we note that the
affidavit seems to have been technically correct—based on the record before us, Deborah had not
been adjudged legally disabled in 2017. Moreover, even if the affidavit were incorrect, it’s only
possible relevance is to Elizabeth’s credibility as a witness. The circuit court clearly found
Elizabeth to be credible and we give deference to that finding. In light of all of the evidence, the
court’s finding that Deborah needed a guardian to manage her estate was not against the manifest
weight of the evidence.
153
154

VI. CONCLUSION
Because Deborah was shown to be a person with a disability by clear and convincing

evidence, and because the circuit court’s determination that she requires a guardian of the estate
was not against the manifest weight of the evidence, we affirm the judgment of the circuit court.
16

No. 1-19-1490
While we affirm, we echo the statement of the circuit court that should Deborah’s circumstances
change, she should seek restoration of her right to control her financial affairs.
f 55

Affirmed.

17

IN THE APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT
In re ESTATE OF DEBORAH CHENG,

)
)
)
)
)
)
)
)
)
)
)
)

(MARY RALEIGH, Guardian Ad Litem,
Petitioner-Appellee,
v.
DEBORAH CHENG,
Defendant-Appellant),
(Charles P. Golbert, Cook County Public Guardian, as
Plenary Guardian of the Estate of Deborah Cheng,
Appellee).

No.

1-19-1490

)
)
)

ORDER
Presiding Justice Mikva, and Justices Cunningham and Hams order as follows:
This matter coming to be heard on the defendant-appellant Deborah Cheng’s petition for
rehearing, the court being fully advised in the premises;
IT IS HEREBY ORDERED that the petition is denied.

order entered
JUN o 9 2020

APPENDIX 3

Courtroom Number: 1811
IN THE COURT OF COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT, PROBATE DIVISION
ESTATE OF
)

No. 2018 P 5865

DEBORAH CHENG

FILED
4/15/2019 2:11 PM
DOROTHY BROWN
CIRCUIT CLERK
COOK COUNTY, IL
2018P005865
4691080

)

An Alleged Disabled Adult

ORDER
THIS MATTER COMING ON the conclusion of the trial related to the Petition for
Guardianship filed by Attorney Mary Raleigh, under the directive of Judge Delgado in
Decedent's Estate file #16 P 1784 (Paul Hung-Chiao Cheng), and objected to by respondent.
Petitioner, an attorney appointed by Judge Delgado as the Guardian Ad Litem in the Decedent's
Estate, represented herself. Respondent was represented by Marcie Heflner. The court heard
testimony on the following dates: February 20, 21 and 22, 2019. Closing argument were heard
on February 22; the Court then took the matter under advisement for a written decision.
The Court is very appreciative to the parties, the witnesses and especially to counsels for
their efforts in maintaining the dignity of this court proceeding.
The Court: observed each witness and listened carefully noting any contradictions;
considered the totality of the evidence including exhibits, giving each its proper weight; and
reviewed the applicable law.
IT IS FOUND:
a. As an Exhibit in this hearing, Attorney Mary J. Raleigh, the Guardian Ad Litem in the
above-mentioned Decedent's Estate of respondent's father, provided her Report filestamped May 22, 2018. Prior to the GAL appointment in the decedent's estate, the
executor, Elisabeth Solomon (the twin sister of this respondent) had filed a Motion for
Declaratory Judgement to Allow Executor to Disclaim Legatee s Interest in Estate
pursuant to Deborah Cheng's Power of Attorney dated March 16, 2017. In response to
the Executor's Motion, Deborah Cheng filed objections, among other things, denying
she was receiving any government benefits. The GAL Report stated Deborah Cheng
suffered from a mental illness, was hospitalized because of her mental health on three
occasions and was residing in Margaret Manor (now known as Mado Health CenterBuena Park).
b. On the direction of Judge Delgado in 16 P 1784, the Petition for the Appointment of a
Guardian for the Estate only was filed by Attorney Raleigh on August 21, 2018. She
proposed the Office of Public Guardian (OPG) as the guardian of the estate . The
1
APPENDIX 4

respondent's assets identified were only those assets expected from the decedent's
estate.
g.

During testimony, Kerry Hamill, an attorney for OPG, clarified the petition as asking the
Court only consider a limited adjudication regarding the expectancy to respondent from
her father's decedent's estate. Attorney Hamill was not clear herself

as to what degree
of government benefits -- if any -- respondent was receiving at this time.
She also was
uncertain of any other assets (other than the expectancy) owned by respondent or any
debts respondent may have to the government or otherwise. Attorney Hamill testified,
should OPG be appointed the limited guardian of the estate, OPG would petition the
Court to receive the expectancy not directly into the estate but rather into an OBRA
Trust if authorized. OPG would propose a budget as to the OBRA Trust, and respondent
would have input into the budget. In so doing, any government benefits respondent is
receiving would not be jeopardized during her lifetime.
d. Samuel Cheng testified as to his history with respondent, his older sister (hereinafter
referred to as "DC"):
•

Mother died in 2000; father died 2016.

•

DC graduated from Northwestern University in approximately 1996 with a
degree in industrial engineering. At some point thereafter, DC moved and
worked in Washington DC.

•

In 2007, DC's sister Maria was uneasy about DC as a result of calls/comments.

•

Maria found DC's living conditions not ideal, e.g., "saran wrapped" the
refridgerator.

•

Maria brought DC back to Chicago.

•

At some point thereafter, DC admitted herself voluntarily to Tinley Park Mental
Health Center.

•

Samuel describes his sister at his first visit to Tinley Park as thin, "shocking". She
asked for a Bible, which, Samuel described, reflected shared common values.

•

By family agreement, DC was discharged and moved in with Alice in Orland Park
in Winter 2007.

•

Alice, a nurse, was related possibly as a stepmother. The relationship details
were not clear, i.e., whether the father also resided there with his wife.

•

At some point, DC had a dental procedure; as a result, she quit her job, and took
prescribed pain medication even though "she knew" it was contradicted with her
psychotropics.

•

DC told Samuel she did not "feel normal" at Alice's home; she wanted her own

place.

•

•
•

DC moved into her own apartment. Samuel visited in 2008

and noticed all new
furniture, costing approximately $6,000. DC said "Look! It's me, I'm normal
now!"
Sam also testified there was no stove or microwave in the

apartment.
Thanksgiving 2008 was at Alice's house. DC told Sam she was moving back to
Virginia. Samuel did not agree, he claims DC left the house to leave for
DC/Virginia. Samuel also claims that, because she could not get into his car, she
sat on the curbside. The police were called, DC became violent and ran away
from the police. The police took her to the hospital. On cross exam, Samuel
stated DC had stopped taking her medication. It was not clear to the court as to
whether this resulted in an admission under the Mental Health and
Developmental Disability Code.

•

Elisabeth, the twin sister, came to Chicago and became the agent under DC's
POA.

•

Samuel claimed when Elisabeth discovered DC cancelled her Social Security,
Elisabeth reapplied.

•

Although the time frame was not clear to the Court, the recommendation
(maybe a court order) was to discharge DC to a Group Home for 90 days

•

DC did not comply, and she left for Virginia.

•

DC would call Samuel for money. At some point, respondent was "kicked out" of
a "condo", and DC went from hotel to hotel. He would get calls from DC begging
for money.

•

The family "devised" a plan to bring her back to Chicago (the date/month of this
decision was not clear) and live with her 80 year old father, who owned a 1
bedroom condo at Foster and Sheridan Road; he was on a fixed income.

•

Samuel gave DC a $50 debit card each month to make food purchases. He would
visit 1-2 times per month.

•

In late 2015, DC phoned Samuel saying their father needed help. When he
arrived, he found his father "in desperate condition". The father went to the
hospital and from there to a nursing home. Samuel became his agent under the
father's Power of Attorney in January 2016.

•

Samuel later learned while his father and DC were living together in the condo,
DC would phone the building manager for help with her father. For example, she
would ask for assistance in taking him to the bathroom.

•

After the father moved to a facility, DC remained at the father's condo but
refused to let Samuel in and refused to convey the father's mail. Eventually, the
police came and took DC to Weiss Hospital.

3

Although his father never returned to the condo, with DC gone Samuel spent
time cleaning out the condo where he found very unclean conditions.
•

•

Weiss discharged DC to Chicago Read, from where she was

eventually discharged
to the then Margaret Manor North, now MADO Buena Vista (hereinafter
referred to as " Mado"), in independent care facility for those with mental illness.
Samuel was living in Naperville, and he testified the two-hour drive was a hard
ship, he did visit DC bringing her things from time to time.
DC expressed an interest in moving in with Samuel and his wife around
Christmas 2017. She told him she had money, or could use her inheritance. He
urged her to get a job, and she claimed she had engineering job interviews.
Samuel was unequivocal: he will not agree to having DC move in with him and

his family.
•

Samuel identified a Bank of America Account with a balance of $1300, which DC
wanted to keep below $2,000. He also stated there
was an IRA account in DC's
name of $25,000. He stated he had no knowledge of any pension income.

•

On cross, Samuel admitted he had not seen DC for one year. He did talk
with her
by phone until she began harassing him.
When asked why DC was to live with Alice, he admitted DC did not know Alice
prior to living with her. He also admitted when DC was living on her own in 2008,
he knew of no eviction or trouble with the police.

•

His understanding of DC's status at Mado was that she could leave
...
,
anytime, but
while there, DC had limitations on the length of time she could be out of Mado.

•

Samuel admitted, the family did not want DC to be discharged from Mado.

•

Samuel admitted he had not been to Mado for a case management meeting nor
had he called DC over the holidays. Samuel said, about two months ago, he

spoke with a case manager at Mado who told him "so long as she went with
family "she could be discharged.
e. The CV of Dr. Shephali A. Patel, DC's treating psychiatrist, was stipulated. She is the
author of the CCP-211 and testified to her diagnosis. DC suffers schizophrenia and mood
disorder, but Dr. Patel deferred any diagnosis of personality disorder. The doctor stated
DC "has trouble accepting" her mental illness, she is impulsive and oppositional. Dr.
Patel finds DC "totally incapable" of making personal and financial decisions. She stated
f.

she "absolutely" should live in an ICF-MH.
Otherwise the value of Dr. Patel's testimony was limited. Her interactions with DC were
very short - although technically once per month. Dr. Patel knew nothing about DC's
education or work history; she was not certain of her compliance with medication.
Patel
tried to defend her lack of knowledge by saying "If DC doesn't like the advice, she walks
out." Patel says there is no order requiring respondent to remain at Mado, but she said,

DC Is "fixated" on moving om and having her own apartment. There was no testimony
as to whether Patel inquired of DC as to how she would afford living on her own.
g. Elisabeth Wang-Lm Solomon, respondent's twin sister, testified. She is the executor of
their father's estate and described the status of the decedent's estate. She identified
the money respondent would inherit as over $150,000.
h. Ms. Solomon testified confirming much of Samuel's testimony. She added the following•

She confirmed DC receives Social Security deposited directly to Mado

•

DC returned $68,000 to Illinois in 2009
DC returned $42,000 to the Social Security Administration in 2011,

•

DC told this witness that by paying the funds back should would expunge her
record, as DC denied her mental illness and believed the doctors should be fired
She confirmed DC has an IRA, but no stream of income
She stated DC was last employed as an engineer in 2007 and briefly employed at
a library in 2009.

•

She admitted she last saw her sister in 2016 - despite visits to Chicago from
Seattle where she resides - and she last spoke with her by phone in 2018.

•

DC told her in 2018 she was discharged from Mado.
She testified there was no lack of communication as there are weekly
from DC informing this witness of her state of mind.

emails

•

She resigned as agent under the Powers of Attorney in mid-2018.

•

When DC claimed to be discharged, this witness has spoken with Mado staff.

•

On redirect, this witness clarified her understanding of a special needs trust.
She, like Samuel, wants to see DC work for one year, then "[she] will consider

i.

discharging her from Mado".
Kaitlin Arnold testified as the Clinical Director of Mado. She stated the following:
•

She has contact with DC 1-2 times a week, and DC seeks her out.

•

DC talks about court "but prefers less details". DC does not "want to process
things going on". DC told her she has "no feelings about [this] process".

•

DC repeatedly states she wanted to move in with Sam (her brother) but she has
offered no alternative plan. DC is "fixated" on being discharged.

•

DC "has not wanted to discuss her finances" with the witness.

•

DC tried to stab staff with a pen; she was sent to the hospital to be stabilized.
DC's behaviors are consistent with her schizo-affective and bipolar disorders.

•

DC has never admitted to a psychiatric diagnosis.

•

DC does receive both Medicare and Medicaid; she has never privately paid at
Mado.

•

j.

A "Moving On" program is offered at Mado to assist residents to secure
alternative living situations. DC has not participated.
Various exhibits admitted were documents/filings from the decedent's estate. DC
underscores her disagreement with imposing a special needs trust where her own
father never contemplated one. A 2011 email from DC to "Liz and Jon" identified DC's

perception of the repayment and the misuse of Social Security by others
k. The Exhibit admitted that reflected the Mado records did not establish day-t
o-day

behavior of DC as inappropriate.
l.

Petitioner called DC as an adverse witness, DC objected through her counsel. The Court
ruled that because °f the heightened protection of individual rights and liberty interest
in these types of proceedings., the court sustained the objection. Respondent then did

not return to the courtroom for any day of Elisabeth the entire proceeding
m. The Court denied the motion for directed finding.
IT IS ORDERED:
The Court distinguishes the Probate Act governing adult guardianship with the statutes
under the Mental Health and Developmental Disabilities Code. When the Report of Physician
identifies a mental health diagnosis, the Court considers the diagnosis only as to whether
because of the diagnosis, the individual is not fully able to manage her person

or estate.

In the matter at hand, the Petition filed by Attorney Raleigh requested only the
appointment of the estate. The limitation requested in the petition for guardianship is specificonly as to those assets respondent would take under the distribution of her father's decedent's
estate.
The witnesses suggested but did not produce evidence respondent owns

an IRA
account. It is worth noting neither petitioner or any family member seemed concerned about
those funds, if they exist. The fact that no evidence was produced one way or the other leaves
the court unclear and therefore unable to draw any conclusion, i.e., whether respondent spent
those funds or whether those funds remain available to her and untouched and unknown to
the government.
The evidence was unrefutted that Respondent:
•

Has a serious mental illness, first diagnosed in 2007

•

Has denied having a mental illness

•

Has been hospitalized because of her mental illness on three occasions
since 2007

6

•

Was last hospitalized in 2016 following an episode at her Made residence
where she became aggressive
Has been residing at Mado since 2016 as a voluntary resident, ie., under
no court order

•

Believes she does not belong in an independent care facility

•

Has perseverated about her desire to be discharged from Mado

•

Has told her sister in 2018 she was discharged from Mado; she was not
Has been confident, falsely, she would move in with a family member

•
•

Has been adamant she can handle her own money
Has not been employed since 2009, despite having no constraints
inhibiting her from doing so

•

Has not had a particularly therapeutic relationship with her psychiatrist at
Mado, but there was no evidence she sought to change providers

•

Has not participated in the "Moving On" program offered at Mado to find
an independent living arrangement alternative
Has not acknowledged her dependency on the Social Security Disability
Mado receives on her behalf each month for room and board

•

Did not make sound choices with money she had when she moved into
her own apartment

•

Has used her savings to pay back government benefits to

expunge her
record but never confirmed whether her repayment met her goal

As for Respondent's ability to handle money, there was no evidence prior to 2007 she
mismanaged her money. Although her sister found her behavior serious enough to bring her
back to Chicago, Respondent was not evicted and, indeed, has saved some money.
The witnesses testified to DC's money management since 2007.
Testimony and
evidence favorable to respondent and her ability to manage finances notwithstanding her
mental health diagnosis was:
•

Respondent is intelligent and has achieved an impressive academic degree in
engineering at Northwester.

•

In 2007, Respondent gave her sister agency power under a Power of Attorney,
which respondent never revoked; the agent resigned in 2018

•

Respondent directed her brother to keep the balance of a particular account
under $2,000 (presumably as this is the amount exempted) for Medicaid)

•

Respondent said she did not feel "normal" at Alice's house, and she found an
apartment to move into.

Respondent moved to her own apartment in 2008 and exclaimed "sh
normal now".

e was

•

Respondent used her own - presumably saved -- funds to furnish the apartment.

•

Respondent devised a scheme whereby if she were to return the benefits she
received from the government, there would be no trace of her needing
government assistance.

•

.

To some extent, Respondent's rational found in her filings in the decedent's
estate.

.. f-he eVid,Te heard 51 trlal and ,he exhibi* reviewed'' si"“ 2007, Respondent could not
andle financiai decision-making because of her mental illness was the following:
•

In 2007, the agent - not respondent - applied for Social Security
In 2009, after respondent returned funds, the agent applied for Social Security
again
When Respondent moved to her own apartment in 2008, she bought
new
furniture but did not buy either a microwave or stove.

•

Respondent, who was not working, spent money on carryout.

•

Respondent returned $68,000 to Illinois on the belief by so doing it would
expunge her record related to her need for SSDI because of her mental illness.

•

Respondent returned $42,000 to the federal government as payback because of
the same belief.

•

Respondent received a letter from Social Security Administration acknowledging
receipt of the funds, although it was not clear whether she had met her goal or
sought further efforts to meet her goal of expungement

•

In 2012, after the payback made by respondent to the government, respondent
was evicted and became homeless for a period of time

•

During the 2012 homeless period, respondent would seek financial support from
siblings; she did not seek employment

•

Although she denies it, Respondent currently receives Social Security, Medicare
and Medicaid benefits

•

Respondent is free to leave Mado since her admission in 2016 but she has not

•

Respondent repeatedly expresses her desire to be discharged from Mado

•

Respondent has not taken advantage of "Moved On" offered at Mado
Respondent has expressed to none of the witnesses a specific plan should she
receive her inheritance and lose her government benefits.

•

Testimony suggested testified respondent did not understand the nexus
between her government benefits and her current residence or how that will
change should she directly receive her inheritance.
8

•

Other than briefly in 2009, respondent has not held a job for 11 years.

. H. ™,etbUrden * proof is petitioner's t0 Prove Respondent Is disabled and, because of
her disability, is unable to manage her finances as it relates to her inheritance.
The Court finds DC suffers from schizoaffective disorder and mood disorder. As there
were credible witnesses and no rebuttal of their testimony, as well as exhibits, the totality of
the evidence points clearly and convincingly to respondent's lack of insight into her current
living situation and a lack of Insight into money management in any self-sustaining
way.
Therefore, the Court finds by clear and convincing evidence that DC suffers from a
mental illness of schizoaffective disorder and mood disorder, and because of that mental illness
is not able to weigh the pros and cons of managing her inheritance In light of dependency for at
least the past three years on government benefits.
e original petition requested plenary guardian of the estate only. Until the testimony
of Samuel Cheng, no other assets were known to petitioner or the proposed guardian. While
testimony from other witnesses did not address other assets, and the fact Respondent has
been on Medicaid for some time, leave the Court uncertain as to whether Respondent's assets
include more than the expectancy.
Therefore, the Petition for Guardianship of the Estate only is granted. No less restrictive
alternative is available. Office of Public Guardian has provided evidence the Public Guardian
will confer with respondent on the expenditures while remaining ultimately responsible for the
decision, along with the court's approval.
The Court notes that Deborah Cheng is 44 years old, has an impressive education and
lived a successful life prior to her disability. Ms. Cheng, like all those found in need of a
guardian, is encouraged to seek restoration should circumstances change for her.

#2051

£

9

.Order

(Rev. 02/24/05) CCG N002
IN THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS

i

i t-P ;

/i

H

fefeftJr ojf

T

6 O-T VA
777

v.^ .pE'?r'5C>"'

I8F BBSS’

No.

Cc'T'^t ll "i‘ ’• 1

>

ORDER

\

com \rvfy

(AM-i1', fytky »j
% pOtVJ?: '1 h£
f

<

;

^\4^-4-£//i
~ ]>'

ca^A)
l'Vi

h
i (a/? W-er\M^c>

f

4.k0
Oi^-I
i V'~QYY\J }-{ (mA-t! \ ©f O f6
K..
_JL.r
y
-YV\j (a)\/Y\ fv\ty
\
j?Af^YX

i

S&UZ&'i' cY-DiAi^D:

\kM-€Ar\; n

fKt j)Hd")t>/1 lA iU.l&cCtAffer (C ......
HjL. QtiYeA. hugAtUtl^Ct
jfii.

V.

\% to R. i-vrih <m\l

fAa^j fA- l/£^'v

n-l

1 .

fo W Wa*'A eh -i'h( Mphan fa tJUY^iClcv "ftMt

_

.

,

i

^

/o amjuw-vd.
E N TEME D

JUDGE SUSAN KENNEDY SUUIYAN'Wi!
Attorney No.:

|VUrqg [4#yy______
Any. for PCtoAH ^hgW/j
Name:

Address:

Aa fai . xxa bixii'*Mbo

City/Stace/Yip: AllfQff? iL U(V)2Telephone:

JUN 24 29W

K:?j/

BROWN

ENTERED:

URT

Dated:
>~S.

v.

wu
1

Judge

yv
Judge’s No.

DOROTHY BROWN, CLERK OF THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS
APPENDIX 5

